HHS/OIG-Audit--"Operation Restore Tust Skilled Nursing Facility Review Conducted at AMI Town and Country, Tampa, Florida, (A-04-96-01127)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at AMI Town and Country, Tampa, Florida," (A-04-96-01127)
February 28, 1997
Complete
Text of Report is available in PDF format (908 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $47,147 in charges reported for 24 of the 26 beneficiaries in our sample.
This amount comprises $22,315 related to physical and respiratory therapy services rendered; $10,873 in unallowable supply
charges; $1,618 in inappropriate drug payments; $788 in undocumented x-ray charges; and $11,553 for laboratory services.
Therefore, we are recommending an adjustment of the above charges. In addition, we request that a focused review of physical
and respiratory therapies and the use of standing orders for all therapies be conducted by the Fiscal Intermediary and
State agency in order to recoup overpayments made to this skilled nursing facility and to implement corrective action by
the facility.